MIRA HASHMALL

April 14, 2020

DIRECT DIAL: (310) 552-7560
MHASHMALL@MILLERBARONDESS.COM

VIA ELECTRONIC FILING AND U.S. MAIL
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543-0001
Re: Neal N. Browder, et al. v. S.R. Nehad, et al., Case No. 19-1067

Dear Mr. Harris:
I am writing to request an extension of time for Respondents S.R. Nehad, K.R. Nehad,
and the Estate of Fridoon Nehad to file an opposition to the petition for certiorari filed by
Petitioners in the above-referenced case. Respondents’ brief in opposition to certiorari is
currently due on May 8, 2020. Pursuant to Rule 30.4 of the United States Supreme Court,
Respondents request an extension of 60 days, up to and including July 7, 2020, to file this brief.
There is good cause for this extension. Respondents require sufficient time to respond to
the issues presented by the Petition, as well as those presented by the amicus brief filed by third
parties the California State Association of Counties and the League of California Cities.
Respondents are working diligently to address these issues, but their efforts have been disrupted
by the global crisis caused by the novel coronavirus, which has dislocated Respondents’ counsel
and rendered communication among them more difficult. Respondents therefore need additional
time to adequately respond to the points raised in the Petition and the amicus brief.
Respondents’ counsel also has significant other obligations to meet in unrelated cases
over the next several weeks. This coming Friday, April 17, 2020, I will be making oral
arguments before the California Court of Appeal in Claggett v. County of Los Angeles et al.,
Case No. B295420, and I am currently drafting a brief due to the California Court of Appeal on
Monday, April 20, 2020, in Michael S. Yu, et al. v. Bank of the West, Case No. B304011.
Further, I have another brief due to the California Court of Appeal on May 10, 2020, in
Association for Los Angeles Deputy Sheriffs v. County of Los Angeles, et al., Case No. B296425,

457872.1

Scott S. Harris
April 14, 2020
Page 2

as well as multiple other obligations in various trial court matters. The requested extension
would allow Respondents’ counsel to meet these obligations while also granting this case the
time and attention that it requires.
Granting this 60-day extension would also comport with considerations of fairness, as
Petitioners applied for, and were granted, two separate 30-day extensions to file the Petition,
matching the extension that Respondents seek here. Respondents’ counsel has contacted
Petitioners’ counsel George F. Schaefer regarding this matter, and Mr. Schaefer answered that
Petitioners do not object to Respondents’ proposed 60-day extension.
Thank you for your attention to this request.
Sincerely,

Mira Hashmall
cc:

457872.1

George F. Schaefer, Esq.

